No. 19-753

 

IN THE

Supreme Court of the United States

MICHAEL HUNTER, MARTIN CASSIDY, CARL CARSON,
Petitioners,

v.

RANDY COLE, KAREN COLE, RYAN COLE,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,994 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 24, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
